fi

Q@QCKLE

2311 Douglas Street Le ga ] Bri e fs E-Mail Address;

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-169
JANE DOE,
Petitioner
V.
IOWA,
Respondent
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the Sth day of September, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE COMMUNITY LEGAL
SERVICES, INC. IN SUPPORT OF PETITIONER JANE DOE’S PETITION FOR A WRIT OF CERTIORARI in the above
entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the
following:

SEE ATTACHED
To be filed for:
JAMIE GULLEN KATIE SVOBODA-KINDLE
Counsel of Record 1424 Chestnut Street
1424 Chestnut Street Philadelphia, PA 19102
Philadelphia, PA 19102 215-981-3708
215-981-3787 kkindle@elsphila.org

jgullen@clsphila.org

Subscribed and sworn to before me this 5th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

et  E bolle Qu dea h, Chole

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38665
SERVICE LIST

Louis S. Sloven

Assistant Attorney General
Hoover State Office Building
1305 E. Walnut St., 2nd Floor
Des Moines, IA 50319
515-281-5164
Louie.Sloven@ag.iowa.gov

Counsel for Respondent State of lowa

Stuart Banner

UCLA School of Law
Supreme Court Clinic
405 Hilgard Ave.

Los Angeles, CA 90095
310-206-8506
banner@law.ucla.edu

Counsel of Record for Petitioner Jane Doe
